-                     Closeout of M90080032

This case was brought to OIG on August
       a program officer in the Division of
He had received an allegation from a
                       the PI on a-proposal under review,
                                         and Medical Center,
               e allegation was that it seemed likely that the
proposal had actually been written by a senior colleague of the
subject .
OIG learned that a similar proposal had previously been submitted
to the National Institutes of Health by the senior colleague. In
addition, after her NSF proposal the subject had submitted
another proposal to NIH under her own name that was similar to
both the NSF proposal and the earlier NIH proposal. These facts
were verified by phone conversations and letters to the subject
and senior colleague. OIG also learned that the proposal to NSF
did not mention the NIH proposals on its Cover Sheet or on the
form "Current and Pending Support for Research and Education in
Science and Engineering", nor was the program officer told of
them informally.
OIG's finding was that the senior colleague had written a large
part, but not all, of the NSF proposal, and that the subject
should have made that clear. In addition, the subject did not
meet NSF requirements when she failed to notify NSF about the NIH
proposals. These are faulty practices that fail to give needed
information to the reviewers and program officer. However, OIG
did not judge that they were serious violations of the
regulations for misconduct in research, and did not propose
further inquiry or a formal investigation. OIG spelled out its
concerns in a final letter to the subject and urged better
compliance in the future. The case was then closed.




March 18,.1991
